THE COMMONWEALTH OF MASSACHUSETTS
OFFICE OF THE ATTORNEY GENERAL
ONE ASHBURTON PLACE
BOSTON, MASSACHUSETTS 02108
(617) 727-2200
(617) 727-4765 TTY
www.mass.gov/ago
September 15, 2021
By Electronic Filing
Scott S. Harris, Esq.
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543-0001
Re:

Project Veritas Action Fund v. Rachael S. Rollins, in Her
Official Capacity as District Attorney for Suffolk County, Mass.,
No. 20-1598 – Second Request for Extension of Time

Dear Mr. Harris:
The Court has requested that the respondent, District Attorney Rachael S. Rollins, file a
brief in response to the petition for a writ of certiorari in the referenced case. Ms. Rollins
previously sought, and was granted, a 60-day extension of her deadline to file that brief, through
October 4, 2021. Pursuant to Supreme Court Rule 30.4, she now respectfully requests a further,
11-day, extension of that same deadline, through October 15, 2021. She does not expect to
request any further extensions of her time to file her brief in response to the petition.
This request is based on the need for additional time to prepare a helpful response to the
petition. While the respondent has prioritized this matter, it has become clear that a modest
amount of additional time will be necessary due to the considerable internal review that will
precede this filing. Counsel for the petitioner has assented to the requested 11-day extension.
Thank you for your consideration.
Sincerely,

Eric A. Haskell
Assistant Attorney General
cc:

Benjamin Barr, Esq.

